<html>
<title> - THE SCIENCE OF HOW HUNTING ASSISTS SPECIES CONSERVATION AND MANAGEMENT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                       THE SCIENCE OF HOW HUNTING

                      ASSISTS SPECIES CONSERVATION

                             AND MANAGEMENT
=======================================================================



                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON INVESTIGATIONS AND

                               OVERSIGHT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                         TUESDAY, JUNE 19, 2012

                               __________

                           Serial No. 112-90

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
74-727                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               BEN R. LUJAN, New Mexico
RANDY NEUGEBAUER, Texas              PAUL D. TONKO, New York
MICHAEL T. McCAUL, Texas             JERRY McNERNEY, California
PAUL C. BROUN, Georgia               TERRI A. SEWELL, Alabama
SANDY ADAMS, Florida                 FREDERICA S. WILSON, Florida
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
CHARLES J. ``CHUCK'' FLEISCHMANN,    SUZANNE BONAMICI, Oregon
    Tennessee                        VACANCY
E. SCOTT RIGELL, Virginia            VACANCY
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

              Subcommittee on Investigations and Oversight

                   HON. PAUL C. BROUN, Georgia, Chair
F. JAMES SENSENBRENNER, JR.,         DONNA F. EDWARDS, Maryland
    Wisconsin                        ZOE LOFGREN, California
SANDY ADAMS, Florida                 BRAD MILLER, North Carolina
RANDY HULTGREN, Illinois             JERRY McNERNEY, California
LARRY BUCSHON, Indiana               EDDIE BERNICE JOHNSON, Texas
DAN BENISHEK, Michigan
VACANCY
RALPH M. HALL, Texas
                            C O N T E N T S

                         Tuesday, June 19, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Paul C. Broun, Chairman, Subcommittee 
  on Investigations and Oversight, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    10
    Written Statement............................................    11

Statement by Representative Paul D. Tonko, Ranking Minority 
  Member, Subcommittee on Investigations and Oversight, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    12
    Written Statement............................................    14

                               Witnesses:

The Hon. Daniel Ashe, Director, U.S. Fish and Wildlife Service
    Oral Statement...............................................    16
    Written Statement............................................    19

Dr. Al Maki, Chairman, Conservation Committee, Safari Club 
  International
    Oral Statement...............................................    27
    Written Statement............................................    29

Dr. Stuart Pimm, Professor, Nicholas School of the Environment, 
  Duke University
    Oral Statement...............................................    34
    Written Statement............................................    36

Mr. Nick Wiley, Executive Director, Florida Fish and Wildlife 
  Conservation Commission
    Oral Statement...............................................    39
    Written Statement............................................    41

Discussion                                                           43

              Appendix: Answers to Post-Hearing Questions

The Hon. Daniel Ashe, Director, U.S. Fish and Wildlife Service...    55

Dr. Al Maki, Chairman, Conservation Committee, Safari Club 
  International..................................................    59

Mr. Nick Wiley, Executive Director, Florida Fish and Wildlife 
  Conservation Commission........................................    62


                       THE SCIENCE OF HOW HUNTING


                      ASSISTS SPECIES CONSERVATION


                             AND MANAGEMENT

                              ----------                              


                         TUESDAY, JUNE 19, 2012

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:23 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Paul Broun 
[Chairman of the Subcommittee] presiding.

[GRAPHIC] [TIFF OMITTED] 74727.001

[GRAPHIC] [TIFF OMITTED] 74727.002

[GRAPHIC] [TIFF OMITTED] 74727.003

[GRAPHIC] [TIFF OMITTED] 74727.004

[GRAPHIC] [TIFF OMITTED] 74727.005

[GRAPHIC] [TIFF OMITTED] 74727.006

[GRAPHIC] [TIFF OMITTED] 74727.007

[GRAPHIC] [TIFF OMITTED] 74727.008

    Chairman Broun. The Subcommittee on Investigations and 
Oversight will come to order. Good afternoon. I welcome 
everyone to today's hearing entitled, ''The Science of How 
Hunting Assists Species Conservation and Management.'' You will 
find in front of you packages containing our witness panel's 
written testimony, their biographies, and truth in testimony 
disclosures.
    I now recognize myself for five minutes for an opening 
statement.
    As a hunter who was first introduced to the sport by my dad 
when I was six years old, I am personally aware of the positive 
impacts of managed hunting in America as well as overseas. I 
have been involved in hunting for about 60 years, and I am a 
life member #17 in the Safari Club International, the world's 
largest pro hunting conservation organization.
    However, there may be some who are not aware of the 
positive impacts and how science of hunting assists species 
conservation and management. Today's hearing is part of my 
effort to ensure that legal hunting is properly recognized for 
its positive impacts on domestic as well as international 
animal populations, as well as conservation in general.
    We have several witnesses that are testifying today who can 
speak firsthand of the positive impact of hunting and the 
science behind it. Represented today by its Director, Dan Ashe, 
the U.S. Fish and Wildlife Service has repeatedly highlighted 
the positive impacts of hunting.
    Also testifying today is the Executive Director of the 
Florida Fish and Wildlife Conservation Commission, Nick Wiley. 
One of his responsibilities is management of legal harvest of 
American alligators, a species that was listed as endangered 
from 1967 to 1987. It only took 20 years for an incredibly 
successful managed harvesting program to end the endangered 
status of the American alligator. Similar efforts overseas are 
ongoing for other species as a representative from Safari Club 
International will testify today.
    Legal hunts use scientific studies to determine the proper 
amount and type of hunting to be permitted for each species. In 
some cases, hunting may be used to address an overpopulation of 
one species that is harming other species or the environment as 
a whole due to overcrowding.
    In an urban environment, like Washington, DC, the 
overpopulation of deer in places like Rock Creek Park is 
apparent to anyone who drives on the Rock Creek Parkway. The 
only real threat to these deer are automobiles. Less visible 
reminders are the lack of young shrub and tree growth due to 
the deer being desperate for food.
    Hunting generates significant revenues through taxes on 
hunting equipment, duck stamps, and other hunting permits. The 
Duck Stamp Program alone is approaching $1 billion in total 
funds for conservation management, land acquisitions, and for 
research. This research includes extensive studies of animal 
populations, threats to their survival, and species survival 
rates. All of this research helps to ensure that society has a 
solid understanding of how best to manage its species to its 
highest sustainable level. Hunters also spend money throughout 
the economy, through airfare, lodging, and food. This means 
jobs for Americans.
    However, I am disappointed that some in our society are 
opposed to any legal hunting, even in the face of its apparent 
widespread benefits. A recent 60 Minutes story highlighted the 
positive benefits of American game ranches that have invested 
significant amount of resources of their own, not taxpayer 
dollars but of their own, to boost populations of the scimitar-
horned Oryx, the addax, and the dama gazelle, all endangered 
species or extinct in their native habitats. These game 
ranchers rely on the hunting of a limited number of the older 
animals to fund their operations and investments in the growth 
of their stocks. Several of these ranches have even been able 
to export a portion of their stock to reintroduce them into the 
wild, using policies that rely upon these captive animals.
    Yet as a result of litigation, hunters must now go through 
a needless paperwork process and jungle in order to spend their 
own money on a legal hunt.
    Ultimately, chasing paperwork doesn't benefit anyone or any 
animal. In fact, paperwork delays and diverts needed funds away 
from the very species that need them. One person interviewed in 
the 60 Minutes piece stated that she would rather see a species 
become extinct than see it hunted. This, unfortunately, in some 
groups is a too-pervasive policy or idea. If this doesn't 
highlight the irrationality of some of these people, I don't 
know what else does.
    Our witnesses today understand the importance of hunting, 
and I look forward to hearing their testimony. I do have some 
concerns about how the U.S. Fish and Wildlife Service handles 
the permit applications for the importation of legal hunts and 
trophies. For example, paperwork delays related to the 
importation threaten the viability of a hunting plan for black 
rhinoceros that is backed by the Conservation on International 
Trade and Endangered Species, CITES, as well as groups such as 
the World Wildlife Fund.
    I am also interested in learning what Director Ashe thinks 
of the requirement for individual taking permits for legal 
hunts of endangered species on American game ranches. Would it 
be better from a regulatory or wildlife conservation 
perspective if individual permits were replaced by an 
alternative system?
    Finally, what can we do as a society to continue to build 
upon the tradition of hunters being the greatest advocate for 
species conservation and management? Their critical role in 
conserving and managing species cannot be ignored. Hunters, 
fishermen, farmers, and foresters are the Nation's true 
conservationists, and we need to support hunting for a 
reasonable and rationale conservation program.
    [The prepared statement of Dr. Broun follows:]

       Prepared Statement of Subcommittee Chairman Paul C. Broun

    As a hunter who was first introduced to the sport by my father when 
I was six years old, I am personally aware of the positive impacts of 
managed hunts in America and overseas. I have been involved in hunting 
for almost 60 years and I am Life Member #17 in the Safari Club. 
However, there may be some who are not aware of these positive impacts 
and how the science of hunting assists species conservation and 
management. Today's hearing is part of my effort to ensure that legal 
hunting is properly recognized for its positive impacts upon domestic 
and international animal populations, as well as conservation in 
general.
    We have several witnesses testifying today who can speak first hand 
of the positive impact of hunting and the science behind it. 
Represented today by its Director, Dan Ashe, the U.S. Fish and Wildlife 
Service has repeatedly highlighted the positive impacts of hunting. 
Also testifying today is the Executive Director of the Florida Fish and 
Wildlife Conservation Commission, Nick Wiley. One of his 
responsibilities is management of legal harvest of American alligators, 
a species that was listed as endangered from 1967 to 1987. It only took 
20 years for an incredibly successful mananged harvesting program to 
end the endangered status of the American alligator. Similar efforts 
overseas are ongoing for other species, as a representative from the 
Safari Club will testify.
    Legal hunts use scientific studies to determine the proper amount 
and type of hunting to be permitted for each species. In some cases, 
hunting may be used to address an overpopulation of one species that is 
harming other species or the environment as a whole due to 
overcrowding. In an urban environment like Washington, DC, the 
overpopulation of deer in places like Rock Creek Park is apparent to 
anyone who drives on Rock Creek Parkway. The only real threat to these 
deer is automobiles. Less visible reminders are the lack of young shrub 
and tree growth due to deer desperate for food.
    Hunting generates significant revenues through taxes on hunting 
equipment, duck stamps, and other hunting permits. The duck stamp 
program alone is approaching $1 billion in total funds for conservation 
management, land acquisitions, and research. This research includes 
extensive studies of animal populations, threats to their suvival, and 
species survival rates. All of this research helps ensure that society 
has a solid understanding of how best to manage a species to its 
highest sustainable level. Hunters also spend money throughout the 
economy through airfare, lodging, and food. This means jobs for 
Americans.
    However, I am disappointed that some in our society are opposed to 
any legal hunting, even in the face of its apparent widespread 
benefits. A recent 60 Minutes story highlighted the positive benefits 
of American game ranches that have invested significant resources of 
their own to boost populations of the scimitar-horned Oryx, the addax, 
and the dama gazelle--all endangered species or extinct in their native 
habitats. These game ranches rely on the hunting of a limited number of 
the older animals to fund their operations and investments in the 
growth of their stocks. Several of these ranches have even been able to 
export a portion of their stock to reintroduce them into the wild using 
policies that rely upon these captive animals. Yet as a result of 
litigation, hunters must now go through a needless paperwork process in 
order to spend their own money on a legal hunt.
    Ultimately, chasing paperwork doesn't benefit anyone or any animal. 
In fact, paperwork delays divert needed funds away from the very 
species that need them. One person interviewed in the 60 Minutes piece 
stated that she would rather see a species become extinct than see it 
hunted. If this doesn't highlight the irrationality of some, I don't 
know what does.
    Our witnesses today understand the importance of hunting, and I 
look forward to hearing their testimony. I do have some concerns about 
how the U.S. Fish and Wildlife Service handles permit applications for 
the importation of legal hunts. For example, paperwork delays related 
to importations threaten the viability of a hunting plan for rhinoceros 
that is backed by the Convention on International Trade in Endangered 
Species as well as groups such as the World Wildlife Fund. I am also 
interested in learning what Director Ashe thinks of the requirement for 
individual taking permits for legal hunts of endangered species on 
Americn game ranches. Would it be better from a regulatory and wildlife 
conservation perspective if individual permits were replaced by an 
alternative system? Finally, what can we do as a society to continue to 
build upon the tradition of hunters being the greatest advocates for 
species conservation and management? Their critical role in conserving 
and managing species cannot be ignored.

    Chairman Broun. Now I yield to my good friend from New 
York, the Ranking Member, Mr. Tonko, for his opening statement.
    Mr. Tonko. Thank you, Mr. Chair. We are here this afternoon 
to discuss an important and challenging goal; wildlife 
management. Our history, our rich history, is entwined with the 
image of the frontier. Early settlers were amazed at the wealth 
of resources they encountered here, first on the East Coast and 
then as they moved west. Resources appeared to be endless. 
Fish-filled rivers and lakes and bays, acres of forests filled 
with timber and an abundant wildlife of all sorts. Hunting, 
trapping, and fishing for sustenance, trade, and sport defined 
the lifestyle of many early Americans.
    The wildlife management policies we have in place today 
were adopted as a result of some tragic losses of a number of 
species due to excesses in these practices. It turned out that 
our hunting, fishing, and trapping, coupled with habitat 
destruction exceeded animals' ability to reproduce. Populations 
collapsed, and a number of species were driven to extinction.
    This was not only tragic for the lost species, but the loss 
of these populations deprived people of food sources and 
livelihoods. Today, we indeed know better. Science and 
experience have taught us that we need to balance our desire to 
hunt and fish and our need for land, water, timber, and mineral 
resources with the needs of the animals and plants that share 
this planet with us.
    The Endangered Species Act, the Lacey Act, the Migratory 
Bird Treaty, our system of wildlife refuges and national parks, 
all of these play an essential role in maintaining that 
balance. There is no question that hunting, when matched with 
effective management and informed by solid biological advice, 
can play a role in sustaining some species. In the United 
States, we have competent agencies at both the federal and 
State levels and some of the best scientists in the world.
    As a result, the United States has been a leader in 
demonstrating to the world how the hunting community can work 
with and be supported by public servants to successfully 
protect species in the wild.
    Sadly, these conditions do not exist in large areas of the 
world. Many of the world's most desirable trophy species reside 
in lands that lack effective governance and a wealthy domestic 
hunting population. These countries do not have a sufficiently 
robust domestic biological science infrastructure to guide what 
would be sound management.
    In addition, cultural traditions that establish the use of 
body parts for their perceived medicinal effects or place high 
value on artifacts crafted from animals fuel strong concentives 
to overexploit populations. In these places the role of 
hunting, which may take the form of poaching, may be 
destructive rather than constructive. It takes solid science 
and a partnership between effective government and the hunting, 
fishing, and outdoor recreation communities to maintain the 
wild areas of this country and the wild animals that inhabit 
them.
    The Endangered Species Act is an important statutory 
structure to guide management decisions for those species that 
are attractive to hunters. There is no evidence that the ESA is 
failing in its purposes. Even when faced with something as 
unusual as hunting ranches that exist off an African hunting 
experience in the wilds of New Mexico or Texas, the law is 
flexible enough to work. I know there have been some complaints 
that the FWS in the face of a court decision should not require 
licenses of facilities that offer hunts of the scimitar-horned 
Oryx, the addax, or the dama gazelle.
    However, the cost of getting the captive-bred wildlife 
permit and the annual taking license work out to just $140 a 
year over a five-year period. If a ranch is charging thousands 
of dollars to hunt just one of these animals, and they are, a 
fee of less than $150 a year to be in that business does not 
seem overly burdensome. It seems to me that the Fish and 
Wildlife Service has been doing a good job. State agencies, so 
far as I am aware, have also been doing a good job in species 
management. The scientific community has rallied to support 
management efforts and guide species recovery plans, and the 
members of the hunting community on balance have been 
responsible stewards of America's wildlife.
    Let me close by offering my personal view that the duck 
stamp fee should be increased. I know that Director Ashe will 
speak to this, but the fee has not gone up in over 20 years. 
This stamp is widely supported in the hunting and recreation 
community and provides dedicated funds to support these 
activities. The terminology, dedicated fund, is something that 
we need to pay strict attention to, and to raise it to $25 
after being at $15 for a generation seems like a reasonable 
step, if, in fact, the dedication of those fees is truly that, 
to provide FWS with the resources dedicated to protect the 
wetlands that our wild fowl need for forage and breeding.
    We were granted an amazing biological inheritance with the 
foresight of dedication of leaders like Teddy Roosevelt, John 
F. Lacey, and Aldo Leopold. They realized that to maintain some 
of our pioneer spirit, our sense of wild, open spaces, and 
connection to this land we needed to protect and revere the 
living resources we share it with. The Wildlife and Land 
Management laws that guide Federal and State Government policy 
ensure that we act as good stewards of this inheritance so that 
it will be passed along to generations to come.
    I thank our witnesses for appearing before the Subcommittee 
this afternoon. I thank you, Mr. Chair, and would highlight 
that I am including a letter from the Humane Society with my 
given statement as part of this proceeding.
    Thank you, and I yield back.
    [The prepared statement of Mr. Tonko follows:]

    Prepared Statement of Subcommittee Ranking Member Paul D. Tonko

    Thank you, Mr. Chairman.
    We are here this afternoon to discuss an important and challenging 
goal--wildlife management. Our history is entwined with the image of 
the frontier. Early settlers were amazed at the wealth of resources 
they encountered here. First on the East Coast and then as they moved 
west, resources appeared to be endless--fish-filled rivers, lakes and 
bays; acres of forests filled with timber; abundant wildlife of all 
sorts. Hunting, trapping, and fishing for susistence, trade, and sport 
defined the lifestyle of many early Americans.
    The wildlife management policies we have in place today were 
adopted as a result of some tragic losses of a number of species due to 
excesses in these practices. It turned out that our rate of hunting, 
fishing, and trapping, coupled with habitat destruction, exceeded 
animals' ability to reproduce. Populations collapsed and a number of 
species were driven to extinction. This was not only tragic for the 
lost species. The loss of these populations deprived people of food 
sources and livelihoods. Today, we know better.
    Science and experience have taught us that we need to balance our 
desire to hunt and fish and our need for land, water, timber, and 
mineral resources with the needs of the animals and plants that share 
this planet with us. The Endangered Species Act, the Lacey Act, the 
Migratory Bird Treaty, our system of wildlife refuges and national 
parks--all of these--play an essential role in maintaining that 
balance.
    There is no question that hunting, when matched with effective 
management and informed by solid biological advice, can play a role in 
sustaining some species. In the United States, we have competent 
agencies at the federal and State levels, and some of the best 
scientists in the world. As a result, the United States has been a 
leader in demonstrating to the world how the hunting community can work 
with, and be supported by, public servants to successfully protect 
species in the wild.
    Sadly, these conditions do not exist in large areas of the world. 
Many of the world's most desirable trophy species reside in lands that 
lack effective governance and a wealthy domestic hunting population. 
These countries do not have a sufficiently robust domestic biological 
science infrastructure to guide sound management. In addition, cultural 
traditions that established the use of body parts for their perceived 
medicinal effects or placed high value on artifacts crafted from 
animals fuel strong incentives to overexploit populations. In these 
places, the role of hunting--which may take the form of poaching--may 
be destructive rather than constructive.
    It takes solid science and a partnership between effective 
government and the hunting, fishing, and outdoor recreation communities 
to maintain the wild areas of this country and the wild animals that 
inhabit them. The Endangered Species Act is an important statutory 
structure to guide management decisions for those species that are 
attractive to hunters. There is no evidence that the ESA is failing in 
its purposes. Even when faced with something as unusual as hunting 
ranches that exist to offer an African hunting experience in the wilds 
of New Mexico or Texas, the law is flexible enough to work.
    I know there have been some complaints that the FWS, in the face of 
a court decision, should not require licenses of facilities that offer 
hunts of the Scimitar-horned Oryx, the adax, or the dama gazelle. 
However, the costs of getting the Captive-bred Wildlife permit and the 
annual taking license work out to just $140 a year over a five-year 
period. If a ranch is charging thousands of dollars to hunt just one of 
these animals--and they are--a fee of less than $150 a year to be in 
that business does not seem overly burdensome.
    It seems to me that the Fish and Wildlife Service has been doing a 
good job. State agencies, so far as I am aware, have also been doing a 
good job in species management. The scientific community has rallied to 
support management efforts and guide species recovery plans. And the 
members of the hunting community, on balance, have been responsible 
stewards of America's wildlife.
    Let me close by offering my personal view that the Duck Stamp fee 
should be increased. I know that Director Ashe will speak to this, but 
the fee has not gone up in over 20 years. The stamp is widely supported 
in the hunting and recreation community and provides dedicated funds to 
support these activities. And to raise it to $25 after being at $15 for 
a generation seems like a reasonable step to provide FWS with resources 
dedicated to protect the wetlands that our wildfowl need for forage and 
breeding.
    We were granted an amazing biological inheritance through the 
foresight and dedication of leaders like Teddy Roosevelt, John F. 
Lacey, and Aldo Leopold. They realized that to maintain some of our 
pioneer spirit, our sense of wild open spaces and connection to this 
land, we needed to protect and revere the living resources we share it 
with. The wildlife and land management laws that guide Federal and 
State Government policy ensure that we act as good stewards of this 
inheritance so that it will be passed along tho the next generation.
     I thank our witnesses for appearing before the Subcommittee this 
afternoon. Thank you, Mr. Chairman.

    Chairman Broun. Thank you, Mr. Tonko. If there are Members 
who wish to submit additional opening statements, your 
statements will be added to the record at this point.
    I would like to make one statement. I don't think there is 
a hunter in this Nation that believes that poaching is hunting. 
It is lawlessness, and it should be prosecuted to the greatest 
degree, whether it is in this country or other way. So please 
don't confuse hunting and poaching because you are talking 
about two different things. I don't think you are a hunter, are 
you, Mr. Tonko?
    Mr. Tonko. I am not.
    Chairman Broun. Okay. Well, we in the hunting community do 
not equate hunting and poaching because they are two totally 
different things.
    Mr. Tonko. And I am not a poacher, though.
    Chairman Broun. Okay. Well, that is right.
    Mr. Tonko. So here we are.
    Chairman Broun. I think poachers ought to be put in jail.
    Okay. At this time I would like to introduce our witnesses. 
The first is the Honorable Daniel Ashe, the Director of the 
U.S. Fish and Wildlife Service, Dr. Al Maki, the Chairman of 
the Conservation Committee of Safari Club International, Dr. 
Stuart Pimm, a Professor in the Nicholas School of Environment 
at Duke University, and Mr. Nick Wiley, the Executive Director 
of the Florida Fish and Wildlife Conservation Commission. I 
welcome all of you all here today.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which Members of the Committee will 
have five minutes each to ask their questions. Your written 
testimony will be included in the record of this hearing.
    It is the practice of the Subcommittee on Investigations 
and Oversight to receive testimony under oath. Do any of you 
have an objection to taking an oath? Please shake your head one 
side or another, say no, or something. Let me know what you 
are--okay.
    Let the record reflect that all the witnesses shook their 
head from side to side indicating that they have no objection 
to taking an oath, and so let the record reflect that fact.
    Now, you also may be represented by counsel. Do any of you 
have counsel here today? Again, please give me an indication so 
I can----
    Okay. Dr. Maki has counsel from Safari Club. Anybody else? 
Okay. Nobody? Please, Dr. Pimm, I don't see your head moving 
one way or the other. Okay. The other three--let the record 
reflect--sir? Okay. Very good. Okay. I just missed that.
    We will let the record reflect that Dr. Maki has counsel 
and the other three do not.
    And if all of you would stand, raise your right hand. Do 
you solemnly swear or affirm to tell the whole truth and 
nothing but the truth, so help you God?
    Thank you. You may be seated. Let the record reflect that 
all of our witnesses have taken the oath.
    Now I would like to recognize our first witness, Director 
Ashe. You have five minutes, sir. If you could, please, keep it 
to five minutes, though the Ranking Member and I took a little 
bit of time over, we always give each other a little bit of 
leeway with that. We would like for you all to please try to 
stay within your five minutes if you can. Director Ashe.

            STATEMENT OF HON. DANIEL ASHE, DIRECTOR,

                 U.S. FISH AND WILDLIFE SERVICE

    Mr. Ashe. Thank you, Chairman Broun and Ranking Member 
Tonko and other Members of the Subcommittee. It is a great 
opportunity to testify today on the role of hunting in 
conservation and management of wildlife resources. I, too, have 
to admit a bias on this subject. I am a lifelong hunter, a 
shooter, and an angler. I grew up in Georgia, hunting 
squirrels, quail, dove, rabbits, although I have dabbled a 
little bit with big game and turkey. My real passion has been 
bird hunting, particularly waterfowl. Some of my most treasured 
memories involve early mornings afield, and we talk much these 
days about the importance of connections to the outdoors, and 
successful hunting demands a connection to the outdoors.
    Certainly understanding the quarry is a basic prerequisite, 
but one has to also understand the consequence of weather and 
adeptly adjust to the curveballs and changeups that Mother 
Nature throws at you. There are certainly other recreational 
pursuits that instill similarly deep connections to the 
outdoors, but few, if any, produce the legacy of commitment and 
the sense of stewardship that hunting does.
    Can hunting serve a positive role in wildlife management? 
Absolutely it does, and the examples abound, particularly, Mr. 
Chairman, as you mentioned in the control and management of 
overabundant populations like we have with deer in Rock Creek 
Park.
    But the overwhelming contribution of hunting to 
conservation is really the sense of personal responsibility 
that it engenders. Hunters become conservationists. They become 
members, volunteers, and leaders in great organizations like 
Ducks Unlimited, Wild Turkey Federation, Boone and Crockett 
Club, Safari Club International, and many, many others. And 
they ensure that their donated time and resources go to on-the-
ground conservation. Hunters were among the original 
conservationists, and today the Nation's sportsmen and women 
through their passion for the outdoors and their commitment to 
ensuring a future for fish and wildlife populations are the 
foundation of our current commitments to protecting and 
sustainably managing these resources for all Americans to 
enjoy.
    For more than a century, hunters and anglers have worked 
tirelessly to ensure an abundance of game and the enforcement 
of wildlife laws to protect wildlife populations. They 
consistently supported funding these efforts through license 
fees and excise taxes on the equipment that they take and use 
in the field. The sporting community continues to dedicate 
their time, wisdom, and energy to conservation working side by 
side with a diversity of stakeholders.
    My written statement discusses the historic role of hunters 
and anglers and wildlife conservation and management and the 
great accomplishments we have made together over the past 
century. I am proud of the U.S. Fish and Wildlife Service's 
legacy in this regard and our contributions to providing 
hunting and angling opportunities to Americans.
    The Federal Duck Stamp, and the National Wildlife Refuge 
System, the North American Waterfowl Management Plan, the 
Wildlife and Sport Fish Restoration Program, and other service-
led programs are key contributors to providing Americans with 
quality hunting opportunities based on healthy wildlife 
populations. Our relationship with our State counterparts is a 
model of American federalism, and I am proud to be here today 
with a good friend and colleague, Nick Wiley, from Florida.
    If we are going to conserve this great legacy we need an 
engaged and active Congress, and I appreciate your leadership 
in holding this hearing today. We need a reauthorized Farm Bill 
with the strongest possible conservation title. We need a price 
increase for the Federal Duck Stamp, which every major 
waterfowl conservation organization is supporting. We need 
reauthorization of key statutes like the North American 
Wetlands Conservation Act and funding levels that will support 
robust habitat conservation. We need stronger science capacity 
within resource agencies like the U.S. Fish and Wildlife 
Service, and as your hearing title correctly indicates, a core 
strength of wildlife management and hunting as a component of 
wildlife management is its basis in science. Investing in this 
capacity is an investment in the future of hunting, and beyond 
game in the bag and rich memories of days afield, these 
investments pay large dividends for the American economy.
    Our 2006 National Survey of hunting and fishing identified 
that hunters and anglers spent $120 billion pursuing their 
passion, an amount equal to what Americans spend on all 
spectator sports, casinos, motion pictures, golf courses, 
country clubs, amusement parks, and arcades combined. The 
tradition of hunting is interwoven in the fabric of 
conservation in America. If we have a strong hunting tradition, 
we will have strong support for conservation.
    Mr. Chairman, my deepest gratitude to you for holding this 
hearing. I look forward to and anticipate your questions. Thank 
you.
    [The prepared statement of Mr. Ashe follows:]
    [GRAPHIC] [TIFF OMITTED] 74727.009
    
    [GRAPHIC] [TIFF OMITTED] 74727.010
    
    [GRAPHIC] [TIFF OMITTED] 74727.011
    
    [GRAPHIC] [TIFF OMITTED] 74727.012
    
    [GRAPHIC] [TIFF OMITTED] 74727.013
    
    [GRAPHIC] [TIFF OMITTED] 74727.014
    
    [GRAPHIC] [TIFF OMITTED] 74727.015
    
    [GRAPHIC] [TIFF OMITTED] 74727.016
    
    Chairman Broun. Thank you, Director. I appreciate your 
testimony.
    Now I recognize our second witness today, Dr. Maki. You 
have five minutes, sir.

              STATEMENT OF DR. AL MAKI, CHAIRMAN,

                    CONSERVATION COMMITTEE,

                   SAFARI CLUB INTERNATIONAL

    Dr. Maki. Mr. Chairman and Members of the Committee, thank 
you for the invitation to testify here today. My name is Dr. Al 
Maki, and I appear before you as a member of the Executive 
Committee of Safari Club International and Chairman of the SCI 
Conservation Committee, and lastly as a representative of 
America's 15 million hunters.
    SCI is a non-profit organization with approximately 52,000 
members worldwide. SCI's missions are the conservation of 
wildlife, protection of the hunter, and education of the public 
concerning hunting and its use as a conservation tool. I am a 
wildlife biologist by trade and a hunter and conservationist by 
trade. I applaud this Committee's decision to hold a hearing on 
a much maligned and often misunderstood topic, the essential 
role that hunting plays in the conservation of wildlife, both 
domestically and internationally.
    As key examples, my Safari Club International Conservation 
Committee currently stewards over 60 individual conservation 
projects all over the world. In the last five months we have 
contributed over $240,000 to conservation research alone. Also, 
since 1937, the Pittman-Robertson Act has resulted in over $2 
billion of funds going directly into budgets for research and 
conservation-related programs, which has allowed several game 
species such as white-tailed deer, elk, antelope, bison, 
turkeys, and many others to expand beyond ranges beyond where 
they are found prior to the implementation of this act, which 
is fully funded by American sportsmen.
    This North American model of hunter-based conservation is 
indisputably the most successful model, promoting wildlife 
conservation worldwide bar none. The roots of this model 
involve such names as Teddy Roosevelt, Aldo Leopold, George 
Grinnell, who collectively established the framework we have 
seen work so successfully time and again. Over 100 years ago, 
Roosevelt wrote, and I quote, ``In a civilized and cultivated 
country wild animals only continue to exist at all when 
preserved by sportsmen. The excellent people to protest against 
all hunting and consider sportsmen as enemies of wildlife are 
ignorant of the fact that in reality the genuine sportsman is 
by all odds the most important factor in keeping the larger and 
more valuable wild creatures from total extermination.''
    Since then, the hunting community has taken those words to 
heart and followed through with action. Unfortunately, our own 
U.S. Fish and Wildlife Service understands the role of hunters 
in conservation but often refuses to embrace it. Again and 
again, the Fish and Wildlife Service has ignored the role of 
the American hunter and instead has chosen to employ the 
Endangered Species Act to prevent or inhibit the use of hunting 
as a conservation tool rather than to encourage it. The saga of 
the three antelope species as related by our Chairman earlier 
this afternoon is a key example. Despite the successes by the 
private ranching of these animals, the anti-hunting community 
refused to acknowledge the role that hunting was playing in 
these species' recovery and threatened to sue the Fish and 
Wildlife Service if it didn't list the three species as 
endangered based on their plight in Africa.
    Despite the arguments offered by SCI and other groups 
against the inclusion of the captive populations, the Fish and 
Wildlife listed both native and U.S. populations as endangered. 
As a consequence, the value and numbers of these animals has 
dropped substantially due to uncertain and owners' paperwork, 
ranchers can no longer be certain that the ownership of these 
animals will pay for itself. The simple truth is that by 
listing these species as endangered, Fish and Wildlife Service 
has undermined rather than benefited the conservation of these 
animals.
    In addition to domestic conservation measures, hunting also 
plays a vital role in international conservation. When a U.S. 
hunter travels to another country to hunt, he or she brings 
money into the local economy. The hunting activity generates 
multiple jobs for the local people, as does the handling and 
shipping of the processed hunting trophy. Hunting gives 
wildlife value that is not realized in the absence of hunting, 
and it also creates incentives to discourage, if not outlaw, 
poaching of that animal. Key species that would be substantial 
beneficiaries of cooperative conservation-based ESA 
interpretation include the black rhino, Suleiman markhor 
leopard.
    As of today the Fish and Wildlife Service still has not 
decided whether to approve vital conservation programs for 
these species despite the fact that they have had all the 
independent scientific data necessary to make these decisions 
for several years.
    When it comes to endangered species, the Fish and Wildlife 
Service has drawn an arbitrary line in the sand. Despite 
acknowledging the benefits that hunting and importation can 
bring to endangered species, the Service has relied on the ESA 
to resolutely refuse to allow hunters to play a role in the 
conservation of foreign species. This arbitrary misuse of ESA 
authority must end.
    I thank the Committee for the opportunity to testify on 
this important issue and ask the Committee to use its authority 
to recognize the role that hunting plays in species 
conservation to make certain that ESA is administered in a way 
that acknowledges and facilitates the role of hunting as a 
conservation tool.
    Thank you.
    [The prepared statement of Dr. Maki follows:]
    [GRAPHIC] [TIFF OMITTED] 74727.017
    
    [GRAPHIC] [TIFF OMITTED] 74727.018
    
    [GRAPHIC] [TIFF OMITTED] 74727.019
    
    [GRAPHIC] [TIFF OMITTED] 74727.020
    
    [GRAPHIC] [TIFF OMITTED] 74727.021
    
    Chairman Broun. Dr. Maki, thank you for your testimony, and 
I applaud the work that you and the Safari Club are doing 
towards true conservation efforts.
    Dr. Pimm, you are recognized for five minutes, and take 
off.

            STATEMENT OF DR. STUART PIMM, PROFESSOR,

              NICHOLAS SCHOOL OF THE ENVIRONMENT,

                        DUKE UNIVERSITY

    Dr. Pimm. Mr. Chairman, Members of the Committee, thank you 
for this opportunity to talk about this extraordinarily 
important subject. I am Stuart Pimm. I hold the Doris Duke 
Chair of Conservation at Duke University. Until recently, I was 
Extraordinary Professor at the Conservation Ecology Research 
Unit in South Africa.
    I do not need to repeat what my colleagues here have said 
and what you as Chair so well summarized. We Americans benefit 
enormously from hunting, from the large areas, protected, duck 
hunters protect wetlands, recreational fishermen are passionate 
advocates for our rivers. At the quite personal level, all 
three organizations on either side of me, the Fish and Wildlife 
Service, Safari Club International, and the Florida Fish and 
Wildlife Conservation Commission, have aided my research group 
and my students.
    The issue at hand is to do with the Endangered Species Act 
and the conservation of endangered species. I think it is 
appropriate to ask whether the act has been successful. It has 
been extraordinarily successful. Our Nation's bird, the bald 
eagle, is now in every State. The Hawaiian State bird, the 
Nene, whooping cranes, black-footed ferrets, gray whales, many 
other species are back from the very edge of extinction because 
of environmental protections.
    Recovery is the ultimate goal of the act, and analyses show 
that the great majority of the species once listed are moving 
back towards recovery at the rate at which we scientists 
expect, if not overnight as some critics might hope.
    The issue of endangered species and hunting, however, is 
complex. Nothing illustrates this better than two East African 
neighbors, Kenya and Tanzania. Kenya bans all hunting. Tanzania 
devotes more of its country to hunting than it does national 
parks. That hunting includes lions, and lions are IUCN Red List 
species. Whether they are managed well is a matter of 
considerable debate. It is not always easy to find out.
    Well, does hunting harm endangered species? The answer has 
to be yes. I do know the difference between poaching and 
hunting. Poaching clearly does, but alas, many species that are 
poached are also hunted legally.
    Now, as a Congressional Research Service report that I 
quote in my written testimony makes clear, the fact that ivory 
and lion bone and lion blood get into the marketplace legally 
or illegally creates a whole manner of ills, not least of which 
is terrorism. There is a very severe problem in Africa and 
elsewhere because of this intermingling of illegal wildlife 
trade. It is very hard for nations of the world to do something 
to protect elephants when there are occasional legal sales of 
ivory.
    These are difficult and very complex issues. The situation 
for tigers illustrates this. There are more tigers in 
captivity, including in breeding facilities, than in the wild, 
but the market for tiger parts creates a massive problem for 
countries like India that try to manage their tigers.
    So, yes, the trade, legal and otherwise, of animal parts, 
particularly of endangered species, can create a substantial 
amount of difficulties. I think the issue becomes can the 
Endangered Species Act and the Fish and Wildlife Service handle 
these complexities. My feeling is that there is a simple 
checklist of actions that we want to ensure those who have 
endangered species on their property can check off. Will those 
captive animals be returned to the wild eventually? Is there a 
recovery plan that can use and integrate the captive animals? 
Has sufficient attention been given to their breeding and to 
their genetics? Are the hunting ranches members of 
internationally recognized organizations and maintain the 
databases? Does the enthusiasm for hunting for species in 
captivity extend to supporting efforts to protect them in the 
wild?
    My experience of the Endangered Species Act is that it 
handles these complexities well. I entirely agree that we in 
the conservation community and hunters share a common sense of 
purpose in our stewardship for the natural environment. I think 
these hearings, which I thank you for holding, give us an 
opportunity to initiate a very important dialogue.
    Thank you.
    [The prepared statement of Dr. Pimm follows:]
    [GRAPHIC] [TIFF OMITTED] 74727.022
    
    [GRAPHIC] [TIFF OMITTED] 74727.023
    
    [GRAPHIC] [TIFF OMITTED] 74727.024
    
    Chairman Broun. Thank you, Doctor. Appreciate your 
testimony.
    Now, Mr. Wiley, tell us about alligators. You are 
recognized for five minutes.

                  STATEMENT OF MR. NICK WILEY,

                EXECUTIVE DIRECTOR, FLORIDA FISH

              AND WILDLIFE CONSERVATION COMMISSION

    Mr. Wiley. Yes, sir. Good afternoon, Chairman Broun, 
Ranking Member Tonko, and Members of the Subcommittee. I 
appreciate this opportunity to testify. My remarks today will 
be from the viewpoint of State fish and wildlife agencies.
    State fish and wildlife agencies have primary 
responsibility for managing the wildlife that reside within the 
States. We have shared responsibilities with federal agencies 
for migratory wildlife that cross State and international 
boundaries or reside on federal lands. State fish and wildlife 
agencies enjoy a longstanding and highly successful partnership 
with the United States Fish and Wildlife Service in providing 
scientifically managed, sustainable hunting for our citizens 
across the Nation.
    Hunting is clearly an enduring feature of American history, 
culture, and heritage. Any person who cares about wildlife, 
whether they hunt or not, should be thankful to America's 
hunters for the generous and steadfast support they have 
provided for wildlife conservation since the early 1900s. The 
record is abundantly clear that hunters have been the first and 
foremost paying advocates for wildlife conservation and 
science-based management. They contribute hundreds of millions 
of dollars each year through excise taxes on firearms, 
ammunition and archery equipment, license and permit fees, and 
donations to conservation organizations. This ``hunter 
conservationist'' system is fundamental to the North American 
Model of Wildlife Conservation and a major reason game species 
are thriving in every State today.
    Since the early 1900s, State agencies have utilized funding 
from hunters to invest heavily in the scientific management of 
wildlife, employing highly trained, professional wildlife 
biologists. Also, universities and federal agencies and 
conservation organizations contribute greatly to the wildlife 
science utilized by State agencies. All of this technical 
expertise provides a powerful scientific foundation for 
wildlife management. As a result, population dynamics and 
habitat requirements of hunted wildlife species are generally 
well studied. This information, in concert with science-based 
data collection, analyses and monitoring, sustains our very 
successful hunting and conservation programs.
    Game management has been defined as the art and science of 
applying the principles of wildlife management to achieve a 
balance between the needs of people and the needs of wildlife. 
The fact that populations of game species annually produce a 
harvestable surplus is the basis for the biological theory 
underpinning the capacity for hunting. This harvestable surplus 
depends on how well a species of game survives and reproduces, 
in addition to the availability and condition of its habitat. 
Professional biologists apply various tools to collect the 
scientific data that defines this harvestable surplus and also 
ensures that game populations continue to thrive. These tools 
include surveys that assess animal populations and annual 
harvest rates, studies where animals are marked with radio 
collars or leg bands, and direct surveys of hunters. In the 
hands of professional wildlife biologists, these tools can 
measure size and trends in populations, reproductive success, 
mortality factors, harvest levels, and hunting pressure. In a 
key piece, hunters frequently play a role in supplying this 
information and generally are enthusiastic about helping 
provide the data needed to ensure species conservation and the 
sustainability of hunting. This is another important way that 
hunters support wildlife conservation and contribute to its 
success.
    After analyzing the biological and social information, 
agency biologists develop recommendations for the structure of 
hunting opportunities such as season dates, bag limits, or 
quotas. In most States, recommendations are presented to a 
governing body, often a commission or a legislature. These 
decision-making bodies absolutely rely on the fact that 
recommendations from agencies are based on sound science as 
they also thoughtfully consider input from the public in 
establishing hunting regulations.
    I would like to wrap up by echoing remarks from Chairman 
Broun. We have a great success story in Florida that 
illustrates the inextricable links between hunting, science, 
and wildlife conservation. In 1967, the American alligator was 
listed as an endangered species because of unregulated market 
hunting. Today alligators are abundant throughout Florida, 
providing plentiful hunting opportunities. This remarkable 
recovery is largely due to the effective and exemplary science-
based regulation and management. Public hunting of alligators 
has been allowed in Florida since 1988, and total harvests 
average now more than 20,000 per year. License and permit fees 
paid by alligator hunters provide the funding base for the 
science and management that insures alligator harvests are 
sustainable.
    Moreover, Florida's economy benefits by more than $14 
million annually as a result of alligator hunting and 
associated industry.
    This example illustrates how management decisions about 
hunting are driven by reliable science and as a result, are 
effective and well supported by the public. Looking forward, I 
am confident that hunters will continue to be the strongest 
advocates for science-based wildlife management, habitat 
conservation, and sound public policy. And in doing so, they 
will continue to ensure our wildlife resources are robust, 
public access to wildlife is guaranteed, and future generations 
of Americans will enjoy a rich legacy of hunting across all 50 
States.
    Thank you.
    [The prepared statement of Mr. Wiley follows:]
    [GRAPHIC] [TIFF OMITTED] 74727.025
    
    [GRAPHIC] [TIFF OMITTED] 74727.026
    
    Chairman Broun. Thank you, Mr. Wiley. I appreciate your 
testimony and the great job you all are doing in Florida. Not 
only managing alligators but all your wildlife species down 
there since, particularly since we are in a neighboring State 
and a great friend of mine, Dr. Tom Rainey, was chairman of the 
Fresh Water Fish and Game Commission down there, so I am very 
familiar with the great job you all are doing down there, and I 
appreciate it. Ms. Adams, who is on this Committee, wanted to 
come and greet you and introduce you, and unfortunately, she 
was detained in another hearing that she had to go to, so I 
express my greeting from Ms. Adams to you. I thank you for 
being here.
    I want to thank you all for your testimony. Remind Members 
that Committee rules limit questioning to five minutes. The 
Chair at this point will open the first round of questions.
    I now recognize myself for five minutes.
    Director Ashe, a portion of the Fish and Wildlife Service 
budget is devoted to science. What portion of that is related 
to the science of how hunting impacts species management and 
conservation? Does any of this funding come from licensing, 
stamps, permits, excise taxes, the Pittman Ramage Funds, Wallet 
Bro Funds, et cetera?
    And if so, how much? Are these funds used to support 
federal scientists, federal grants, state scientists, or State 
efforts, and how does the funding break down by category?
    Do you need me to repeat the questions so you can write 
them down?
    Mr. Ashe. First of all, none of our science funding comes 
from excise taxes, license fees, duck stamps. All of the 
funding, all of the license or all of the excise taxes that we 
collect go back to the States absent, I think, 1.8 percent in 
administrative costs that the legislation allows us to take, 
and all of the proceeds from the duck stamp go to conservation 
minus two percent for administration.
    How much we spend on science in the Fish and Wildlife 
Service, we don't manage that as a separate category in the 
budget. We do have a growing scientific program within the Fish 
and Wildlife Service, which is about $30 million. That doesn't 
represent what we do in the context of science. We do much 
broader work than that, but that is the specific budget that we 
manage for science, and it is our highest priority to grow our 
capacity in science, and we are involved in an active endeavor 
to do that jointly with our State and other partners by 
designing a national and international network of landscape 
conservation cooperatives.
    And so that is our highest priority in the context of a 
very challenging fiscal climate. Again, I don't track how much 
of that is directed precisely to management of hunting and 
fishing, but most of that would reside within our national 
wildlife refuge system, where 327 of our refuges are open to 
hunting, 271 are open to fishing, and most of the direct 
scientific investigation that we would be doing pertaining to 
hunting or fishing would be in relation to those activities.
    Chairman Broun. Then a lot of it goes to the States, and 
they do scientific studies, too.
    Mr. Ashe. Nearly, well, about $700 million this year we 
provide to the States through the Wildlife and Support Fish 
Restoration Program. Those are the excise taxes on hunting and 
fishing and motor boat fuel sales tax, and that money goes to 
the States, and they support significant amounts of research, 
but those priorities are set at the State level.
    Chairman Broun. If you can get us any data about how much 
the States spend out of those funds, it could be very helpful.
    Mr. Ashe. Yes.
    Chairman Broun. And I appreciate you supplying that to the 
Committee.
    Mr. Ashe. Absolutely.
    Chairman Broun. Then, Director Ashe, do the permitting 
delays of the U.S. Fish and Wildlife Service harm species 
conservation and management?
    Mr. Ashe. I don't believe, I mean, I don't believe that 
the--I don't believe that they do. I mean, permitting delays is 
an unspecific--I will refer maybe to Dr. Maki's----
    Chairman Broun. I am fixing to ask him next.
    Mr. Ashe [continuing]. Statement. I mean----
    Chairman Broun. I just would like a quick answer----
    Mr. Ashe. Yeah.
    Chairman Broun [continuing]. Because my time is about out.
    Mr. Ashe. All right. No, I don't.
    Chairman Broun. Okay. Dr. Maki, can you answer that 
question?
    Dr. Maki. Thank you, Mr. Chairman. We have examples. I 
tried to mention a couple. Certainly the species conservation 
would be benefited if we had facilitated a permitting process. 
The ESA provides for some very onerous steps that must be 
jumped through and in order to achieve those, they represent a 
significant impediment at times for some of the species that we 
deal with.
    For example, the Suleiman markhor is one of the better 
examples we have in the country of Pakistan. The Tourgar 
Conservancy is the range of these animals occur. We have survey 
data consistently developed for that species indicating a 
robust population that would easily sustain an off-take 
annually.
    However, we have been unable to convince Fish and Wildlife 
Service to issue those permits, and, as a result, the Suleiman 
markhor is missing out on potential conservation funds that 
would be benefited from the hunting of these species.
    Chairman Broun. Thank you, Dr. Maki. I have personally 
experienced this. In fact, I was working in Pakistan on some 
wildlife management issues with Suleiman markhor as well as the 
urials in Pakistan early on when the hunting was just beginning 
to be put in place. And it was Fish and Wildlife Service, and 
permitting problems actually stopped those hunting programs and 
actually the species was greatly harmed by the permitting 
process.
    My time is up. I now recognize Mr. Tonko for five minutes.
    Mr. Tonko. Thanks, Mr. Chair.
    Perhaps to begin, Director Ashe, do you have anything you 
want to respond to in terms of Dr. Maki's comment?
    Mr. Ashe. I would say that when we made the determinations 
for import or export under the Endangered Species Act, the 
basic decision standard that we have to meet is does the--will 
the activity support enhancement of the survival of the species 
in the wild. And so if we deny a permit, it is because we don't 
see benefit for the species in the wild, and I realize that 
people will differ in their judgment about what benefits the 
species.
    You know, Dr. Maki referred before to onerous permit 
requirements for the three antelope species. I have the permit 
here with me. It is six pages. Two of the six pages are the 
instructions for the application, and he referred to it as an 
uncertain process. Well, our regulation went into effect on May 
18. We have received 97 permits for captive-breed wildlife 
facilities. We have issued 77 permits in that period of time.
    And so I would say it is neither onerous nor uncertain. If 
the--and we have denied no permits during that period of time. 
So I would actually say that the permit process is quite 
friendly and quite predicable for the applicants if they apply. 
It is our hope that we can get them a permit. That is our 
objective.
    Mr. Tonko. All right. Thank you very much.
    The takings of in the Commerce and Endangered Species can 
only be justified under the law if it can be demonstrated that 
such activities are supporting survival of the species in the 
wild.
    What programs would you share with us that the FWS runs are 
there to ensure that the canned hunting on ranches in the 
southwest actually fulfill the purposes of this act?
    Mr. Ashe. The ranches in the southwest are providing a 
benefit to the survival of the species by maintaining a 
genetically diverse breeding population. Several of these are 
species that have been extirpated from the wild, so they do not 
exist in the wild, and so we are dependent upon captive 
propagations.
    So they are providing a benefit. Are they essential to the 
conservation of the species? I think we believe not essential 
because we also have a very robust population that exists 
within the zoological community, but they are providing a 
benefit, and so we believe that the activities are 
appropriately regulated under the Endangered Species Act. We 
did try to exempt them from the permitting requirements. We 
were challenged legally. We lost, so what we are trying to do 
is provide the minimal opportunity necessary for them to comply 
with the law and conduct the commercial operation which they 
are conducting.
    Mr. Tonko. And Dr. Pimm, if I might ask you, should the 
steps in this process, any of them be strengthened, or should 
there be clearer standards for these specific branches?
    Dr. Pimm. I think Mr. Ashe has explained the situation 
really rather well. The ventures do benefit; they benefit by 
maintaining the genetic diversity, and there is a process that 
seems to me to be scientifically credible that leads to the 
right kind of decisions being made. It is, you know, you want 
to have animals, you want to have animals that are genetically 
diverse, you want to make sure that there will be introduction 
programs, and all of that requires a lot of very careful 
science. And my experience has been that the Service has the 
people to make a very reasonable assessment of those rather 
complicated issues.
    Yes, I am a scientist. I love the idea of being given the 
opportunity to tell you we need more science.
    Mr. Tonko. And also, well, I see I only have seconds left. 
I will yield back and catch you on the next round.
    Chairman Broun. I will be glad to give you a little leeway 
if you want a few more seconds.
    Mr. Tonko. Are we going to do another round?
    Chairman Broun. Well, I don't know. We will see. Go ahead, 
and I will give you another little bit if you----
    Mr. Tonko. Okay.
    Chairman Broun [continuing]. Want to ask one more question.
    Mr. Tonko. Okay. Dr. Pimm, what happens to endangered 
species when there is insufficient funding for programs or low 
pay for government officials and an uncertain legal 
environment?
    Dr. Pimm. I mean, the sad thing is that endangered species 
go extinct, and I think we lose at a variety of levels. We lose 
at an economic level because many endangered species generate 
huge amounts of economic activity. Currently the whaling 
industry now is worth a lot more than the whaling industry was, 
you know, when we hunted them. The whaling industry now is 
people going out and photographing them.
    I also think, at a personal level as a Christian, that I 
have the role as a steward. I think stewardship is an ethical 
issue, and therefore, when species become extinct, I think that 
is a challenge to us and our society.
    Mr. Tonko. Thank you very much. I yield back.
    Chairman Broun. Okay. Thank you, Mr. Tonko.
    Dr. Bucshon, you are recognized for five minutes.
    Mr. Bucshon. Thank you, Mr. Chairman.
    I am from--I grew up in Illinois. I did a lot of hunting 
also and primarily squirrel, pheasant, rabbit, and this is a 
little bit off topic but since I have you here, I am interested 
in the deer population in Illinois and in Indiana because I now 
represent Indiana, and as you probably know, there--it is a 
general impression that there are a lot more auto accidents 
related to the deer population in certain areas of our country, 
and I would interested to see how, Mr. Ashe, you work with 
State, the State officials to see what we can do about that, 
because my impression is is that--and I have been told there 
are more deer in Illinois now than there was in the 1800s. 
Obviously more food and things like that.
    Can you touch on that maybe about what we can do about 
that? Because there is a significant economic impact of having 
an overpopulation of white-tail deer in Illinois and Indiana.
    Mr. Ashe. We do work with our State counterparts, and I 
would maybe suggest you ask Nick Wiley to respond as well, but 
I think that responsible wildlife management is the key to 
dealing with that, and here--I am a resident in Maryland here, 
and we have a similar problem with overabundant deer 
populations, and especially in suburban, urban areas that is a 
very challenging issue to deal with. But it can be dealt with 
effectively where our State partners are expert in designing 
suburban and urban-based hunting opportunities but also other 
management techniques to reduce deer populations.
    Mr. Bucshon. Mr. Wiley.
    Mr. Wiley. Yes, sir. That is an issue that is challenging 
many States, and we are having to get more creative, but it 
really--the solutions that are working in most States are--
start with working with the local community and kind of 
developing a plan that they can accept and implement, and many 
times they quickly realize hunting is the best tool to apply, 
but you have to do it carefully using methods such as archery 
and things like that are more compatible with an urban 
environment.
    So and also you look at the land surrounding the community. 
If you can increase your quotas and increase your harvest 
pressure in those areas, sometimes that can help as well. So 
definitely by working with those communities to get their buy-
in and support is a key.
    Mr. Bucshon. Thank you. Dr. Maki, as it relates to that, as 
you probably know, I mean, even since I was a kid in the '70s, 
we have a declining number of young people interested in 
hunting, and that I think is probably contributing somewhat to 
the problem I just addressed. Is there anything we can do out 
there to help with that?
    Dr. Maki. Thank you. Well, certainly hunter retention, 
hunter recruitment is one of the bigger issues the Safari Club 
is working with. The education of the young, bringing them onto 
safe gun handling, exposing them to the outdoors is one of the 
initiatives that we have launched through many of our education 
programs and outreach efforts in our, through our chapter 
network throughout each of the individual States.
    Mr. Bucshon. And also, Dr. Maki, Dr. Pimm's testimony 
advocates for several conditions to hunting captive endangered 
species, specifically the reintroduction of some captive 
animals into the wild, the development of a recovery plan for 
reintroduction, termination of the need to hunt captive species 
versus sanctuaries and zoos, attention to genetics and breeding 
concerns, and finally, efforts to protect species in the wild.
    Do you have any comments as it relates to those criteria?
    Dr. Maki. Yeah. All good points and ones that haven't gone 
by us at all. Certainly the examples with the three antelope 
that are consistent to this hearing is a good example. Those 
captive populations in Texas served as reintroduction stock 
back into their natural ranges in several North African 
countries. So it does, indeed, serve the purpose of 
reintroduction. We have recognized for some time now that the 
breeding and genetics issue not only in captive wildlife but in 
true wild populations is a big issue, and we have instituted 
now an international genetic sampling program where we 
encourage our hunters to take both blood and tissue samples of 
the animals, and it is our hope eventually we will develop a 
genetic bank where we can keep track of the stocks around the 
world. This program is administered currently through Texas 
A&M, and we have literally thousands of samples being cataloged 
in that program.
    Mr. Bucshon. Thank you, Mr. Chairman. I yield back.
    Chairman Broun. Thank you, Dr. Bucshon.
    Mr. McNerney, you are recognized for five minutes. I don't 
know if you are a hunter or not.
    Mr. McNerney. You are going to find out.
    Chairman Broun. Okay. Well, good. You are recognized for 
five minutes.
    Mr. McNerney. Well, I appreciate you calling this hearing.
    Dr. Pimm, it seems that a productive partnership can 
develop between scientists, government officials, and hunters. 
Could you speak a little bit about the science involved? What 
does the science do? What role does it play in that sort of a 
partnership?
    Dr. Pimm. I think within the 25 years, 30 years that the 
Society for Conservation Biology, which is my professional 
organization, has existed, that we have come to develop a whole 
variety of very sophisticated skills. They involve analysis of 
satellite imagery to work out where the habitats are, 
understanding population dynamics, what kind of harvests we can 
have, a very full understanding of the quite tricky genetic 
issues that we, Dr. Maki and I have both mentioned.
    And there is, I think, a very strong interconnection 
between all of the organizations represented on the table here 
of this sort of feedback between the science and the 
management, as I alluded to earlier. All three of these 
organizations are funding, indirectly or directly, the work 
that my research group does. I have former students who work 
for the Fish and Wildlife Service, Park Service. I think it is 
a good interchange of ideas.
    Mr. McNerney. Well, good. That sort of gives me a scope of 
what is involved. It is a pretty big effort.
    Dr. Pimm. It's broad. I think it's broad, and it is, as we 
have seen from the really extraordinary successes of the 
Endangered Species Act, what--how very effective it can be.
    Mr. McNerney. At least for the large animals.
    Dr. Pimm. At least the large animals. Yes.
    Mr. McNerney. Mr. Wiley, I have a question I have had in my 
mind for years. Natural predation in the wild selects the 
weaker members of a species. Does hunting play that same role, 
or does it sort of randomly select members of a species? If you 
could answer, if you address that.
    Mr. Wiley. Yes, sir. It is a common assumption. It is not 
always the case that even natural predation selects the weaker 
ones, but just--hunting is less about that. Hunters are more 
selective, and some hunters are out there for the experience 
and just want to take game home. Some hunters are more after a 
trophy of the species. So I would say the hunting approach is 
much less about selecting of a weaker species.
    Mr. McNerney. Dr. Pimm, you have talked a little bit about 
this. What does it take to introduce or reintroduce a species 
into the wild? I mean, that is--for one thing, the species 
disappeared because of a lot of different reasons, some of them 
having to do with habitat. So a lot has to be done I would 
think to introduce it, reintroduce a species successfully. Is 
that correct?
    Dr. Pimm. That is indeed correct, and many species have 
disappeared from the wild because they have been overhunted, 
poached. Let us be clear. Usually. So there has to be the right 
amount of habitat, there has to be some means of controlling 
the hunting, whether it was legal or illegal, the animals need 
to be as genetically diverse as we can because most introduced 
populations are small. So we want to make sure that there is as 
full a representative, representation of the genetic 
variability.
    All of those are issues that we did not well understand 25, 
30 years ago, and I think we understand very, very much better 
now. In my role as a professor in South Africa, we looked at 
several hundred introductions of antelope that took place over 
the last 60 years. Most of them have been successful by paying 
attention to these kinds of issues.
    So a proper effective collaboration between hunters and 
those who hunt in game parks and the scientific community and 
the game management authorities of different countries can, 
indeed, be extremely successful.
    Mr. McNerney. Good. Thank you. Mr. Ashe, how can a U.S. 
agency further species protection goals in the countries where 
poaching may be legal and be consistent with our other foreign 
policy objectives in a country?
    Mr. Ashe. Many of those countries present great challenges 
for us where we have difficulty placing people because of 
security concerns. Congo is a recent example where we have been 
working for years on great ape conservation and now is a 
country that is very difficult to travel in, maintain a 
presence in, and many of those places were dependent upon our 
NGO partners who have, you know, a greater capability to travel 
in and work in those areas. So partnership becomes much more 
important. Law enforcement becomes a key ingredient in those 
cases, effectively equipping and training local law 
enforcement.
    And most recently what we have been focusing on is finding 
ways to provide security for the families of law enforcement 
personnel who are killed in the line of duty, because many of 
them are because they are dealing with heavily armed opponents 
in the battle. And so one of the emerging ingredients is our 
ability to provide security to their families in the event that 
they are killed in that line of duty.
    Chairman Broun. Thank you, Mr. McNerney. We will get a 
second round of questions, and I now recognize myself for five 
minutes.
    Dr. Pimm, I want to be blatantly clear. I don't have a 
question. I have got a comment. Poaching and hunting are two 
totally separate, different things, and please do not confuse 
the two in----
    Mr. Pimm. Mr. Chairman, I did make that clear.
    Chairman Broun. Well, I know, but I just want to make that 
clear to anybody who looks at this record and the testimony 
that hunting and poaching are two totally separate issues, and 
poaching needs to be dealt from a law enforcement perspective.
    Director Ashe, why is the Fish and Wildlife Service not 
acted on the black rhino permit discussed in Dr. Maki's 
testimony, despite having all the necessary documents to make a 
decision for four years now?
    Mr. Ashe. Mr. Chairman, I believe we do not believe we have 
the necessary information. Black rhinos are among the most 
endangered animals in the world, and so the standard of 
evidence is high in that case. I am not intimately familiar 
with those two incidents. We do have two trophies, I believe, 
for which applications have been pending, I think for two years 
within the Fish and Wildlife Service, but I would be happy to 
get you more information.
    Chairman Broun. Please do, if you would, get us the 
information and get the individuals involved in the information 
so that they can do this, because I believe it is absolutely 
vital that you make a decision and do it quickly so that those 
funds can be made available for the conservation of this very 
precarious situation with the black rhino. I have seen some 
black rhino in Africa, and they need to be supported, and 
hunters are going to support them and keep them viable and 
issuing that permit is absolutely critical.
    What is the Administration's position on importation of 
trophies legally collected overseas? And what about those 
trophies that were legally collected prior to the species being 
declared endangered?
    Mr. Ashe. Across the board, I mean, there are, well, there 
are pre-act trophies, which, of course, can be moved without 
restriction. Animals that were taken prior to their--trophies 
that were taken prior to a listing generally are not exempted, 
so they have to, they still have to follow the importation 
requirements. I think--but our record is very good on trophy 
importation. On the average we clear 99 percent of all trophies 
that are requested for clearance are 99 percent are cleared.
    So in my experience 99 percent is an A plus, and so that 
doesn't mean that in certain cases we have problems. It doesn't 
mean that we can't do better. We strive to do better all the 
time, but I think our record is very, very good at providing 
support that is necessary for a vibrant trophy importation and 
exportation industry.
    Chairman Broun. I am not sure I would agree with your data 
nor would I agree with your grade point there, Director. My own 
experiences from being with Safari Club International for many 
years and being their advocate up here in Washington, the data 
that I have is not according to yours.
    Dr. Maki, would you like to comment about that?
    Dr. Maki. Thank you, Mr. Chairman. Well, of course, there 
are a number of species, examples that don't quite fit the 
example of expeditious permitting that we heard. One of the 
more egregious examples is the polar bear situation, where the 
listing of polar bears did occur in the middle of the year, the 
middle of the calendar year; however, over 40 hunters had been 
in the field during that winter, and due to the permitting 
process you have to take your polar bear, then return and apply 
to the Fish and Wildlife Service for the import permit.
    Well, during that wait period while they were waiting for 
their permits to be processed, the Act was enabled that put the 
polar bear on the ESA listing, prohibiting from importing at 
all, and those bears that were legally taken when the season 
was open, before the regulations, are now snagged in the 
bureaucratic tape here because a permit for their import will 
not be issued.
    Chairman Broun. In my few seconds left, I thank you, Dr. 
Maki. I think it is blatantly unfair to a hunter who goes and 
collects the trophy, spends his money, his time, and his energy 
and efforts, and those funds can be utilized in a management 
program, to be denied an import permit when those trophies were 
taken in a very legal way with due conscience and try to do so 
and to come back retroactively and deny them a permit. I think 
it is blatantly unfair.
    My time has expired.
    Mr. Tonko, you are recognized for five minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    The question, Dr. Pimm, that was earlier posed by our 
colleague from California concerning the reintroduction of a 
species into the wild, would hunting ranches play a meaningful 
role in that process?
    Dr. Pimm. That is a question that has a set of conditions. 
I mean, theoretically the answer can be yes. It can even be an 
emphatic yes, but it is not just a matter of numbers. The fact 
that you may have a thousand or 10,000 animals in captivity 
doesn't immediately mean that you are better off. Those 
animals--the purpose of the Act is recovery, recovery in the 
wild.
    So what is going to happen to those animals? Are they going 
to be put back into the wild, and if they are going to be put 
back into the wild, amongst other things, there has to be a 
plan for that, there has to be a place for that, and we need to 
have some understanding of what the genetics of those captive 
animals are.
    So at one end you have got really wonderful programs where 
people have been keeping an eye on the genetics of the species, 
we have what is called a stud book so we know who, you know, 
who your parents are, your grandparents, but unfortunately, at 
the other end there are some nightmare situations, and I am not 
in any sense trying to say that I don't know the difference 
between poachers and hunters, but there is a continuum where 
you have some captive populations, tigers are a fairly obvious 
example, where those animals are never going to contribute 
anything to the wild. On the other well-run programs and Dr. 
Maki has talked about the criteria for those as well, where 
those programs could, indeed, be very beneficial.
    Mr. Tonko. Thank you. Director Ashe, you made a strong case 
for raising the price of the duck stamps. This program is a 
model of how hunter support can be turned to the broad 
advantage of the public, which obviously benefits directly and 
indirectly for the wetlands protections the program has 
created. And it has been wildly successful, and I would like 
you to explain, if you would, please, to emphasize this point 
how long it has been since the stamps have increased and the 
consequences for the success of the program are being stuck at 
that funding level.
    So if you could develop your thoughts, please.
    Mr. Ashe. 1991, is the last time that the duck stamp price 
was increased. It was raised from $7.50, kind of stepwise, up 
to $15, and the--right now the purchase price of the duck 
stamp, which was begun in 1934, is the lowest it has been; the 
purchase value of the duck stamp is the lowest it has been in 
the history of the stamp.
    And so--and now we are faced with this economic situation 
where agricultural land values are skyrocketing, and of course, 
the key breeding area for waterfowl is in the American 
prairies, in the Dakotas and western Minnesota. And so we are 
competing with a booming of farm economy for that same real 
estate.
    So we are proposing to increase the duck stamp. Senator 
Murkowski and Senator Begich have cosponsored legislation in 
the Senate that would provide the Secretary of the Interior 
with authority working through the Migratory Bird Commission to 
set the price of the duck stamp, and we support that 
legislation, as do all the major conservation and waterfowl 
organizations.
    So it is time. We have a sense of urgency and crisis now 
with our migratory waterfowl resource, and we strongly support 
efforts by Congress to increase the price.
    Mr. Tonko. Thank you. Any comments concerning the duck 
stamp from any of our other witnesses?
    Mr. Wiley. Yes, sir, if I may. I think this is a great 
example of how hunters have always led and always been willing 
to step up to the plate and pay for conservation, and Director 
Ashe just mentioned the support for this, and I think that is a 
great indication and illustrates that hunters have always been 
there when they were needed.
    Mr. Tonko. In terms of the projected or recommended 
increase, are you comfortable with that, Mr. Wiley, or should 
it be something other than what is being presented?
    Mr. Wiley. We are comfortable with that because they have 
done the analysis and looked at the economic variables, and so 
we are comfortable with following that lead. Yes, sir.
    Mr. Tonko. Thank you very much. I yield back, Mr. Chair.
    Chairman Broun. Mrs. Adams just arrived, and so, Mrs. 
Adams, you are recognized for five minutes.
    Mrs. Adams. Thank you, Mr. Chair, and I appreciate your 
patience. We were in judiciary markup, so it took a little 
while.
    Mr. Wiley, I just have a question for you. I want to ask 
you about the black panther. I understand the Florida has 
successfully kept the population and its food supply up, but 
some are still pushing to make it endangered. What are your 
thoughts on this, and how would this affect Florida?
    Mr. Wiley. We actually have the Florida panther in 
southwest Florida, and it actually is endangered now, and it is 
a management challenge we share with the Fish and Wildlife 
Service. We have been working for quite a while now to work for 
recovery of that population, and actually it is, I call it a 
success story. We have come from about 30 animals up to as many 
as 160 now that are adults.
    But it does bring with it plenty of challenges, and we are 
working with the communities down there that are concerned 
about panthers in their backyard, we are working with the 
hunting community to make sure--we have a long tradition of 
showing that hunting is compatible with panther recovery, but 
we are continuing to work on that, and that is something that 
is a big issue for the State of Florida.
    Thank you for asking.
    Mrs. Adams. Thank you. I rushed in, and it is the Florida 
panther. Sorry. It has been a busy day between floors and 
buildings.
    Dr. Maki, how can the value of hunting be better 
communicated to society as a whole?
    Dr. Maki. Thank you for the question. It is an interesting 
topic and one that I wrestle with almost on a daily basis. It 
is an issue that we need to make more connection with the 
public to make that understanding better or simply grasp across 
the general population. Hunters, indeed, the data are 
indisputable. The model has been in place now, the North 
America Conservation Model of hunter-based conservation. It is 
very effective. It is a matter of getting over the credibility 
gap on one side; how can you call yourself a hunter for 
shooting animals and yet be a conservationist?
    And the reality is once you enter into that debate, you 
realize that the hunters are, indeed, providing the largest 
source of conservation funding. Getting an education program 
under way, focusing on that point, protection of hunter rights, 
and education of the public is one of the big priorities that 
Fish--that we have here in our SCI programs and our American 
Wilderness Leadership School that we conduct annually.
    Mrs. Adams. Thank you, and Mr. Wiley, I want to ask you 
another question, and I want to tell you that I have been home 
and seen some of the footage of a panther in I guess a tree not 
far from some homes, so I know there are some wandering around 
down in Florida. I have seen them out in the wild, so to speak.
    The American alligator is a success story of a formerly 
endangered species now off the endangered species list. Please 
comment upon the conditions suggested by Dr. Pimm in his 
testimony for hunts of endangered species. Would these 
conditions have prevented or slowed the restoration of the 
American alligator?
    Mr. Wiley. That is a great question. We probably didn't 
have a scenario that would really test that very well in 
Florida because it was, you know, the alligator population 
recovered so fast we were having them in everyone's backyard 
swimming pools, we were having to move them. So we were in a 
stage.
    When we got into a hunting scenario, we were behind the 
curve already, and we are still working to keep up with 
population.
    So I would say that if we would have gone into this highly 
regulatory, highly restrictive, it would have slowed things 
down, and looking back, we probably didn't move fast enough 
with opening up harvest programs.
    So it is a great case study to look at and learn from.
    Mrs. Adams. Thank you. As someone who used to be a law 
enforcement officer and was called to catch an alligator one 
time, I can relate to that.
    With that I yield back.
    Chairman Broun. Thank you, Mrs. Adams.
    It has been a very interesting panel discussion, and thank 
you all for your testimony, your witness today, and answering 
Members' questions.
    Members may have other questions for all of you all. By the 
way, you all is plural for all you all in southern if you don't 
know. [I am sure Dr. Pimm from South Africa may not know that, 
but you all--there may be some more questions.] We would 
appreciate you all answering those questions in writing and 
getting those back as expeditiously as possible. I know I have 
got a whole bunch more questions for you all, all you all, and 
the record will remain open for two additional weeks for 
comments from Members.
    I thank you all for being here. The witnesses are excused, 
and the hearing is now adjourned.
    [Whereupon, at 3:42 p.m., the Subcommittee was adjourned.]

                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
   Responses from Hon, Daniel Ashe, Director, U.S. Fish and Wildlife 
                                Service

[GRAPHIC] [TIFF OMITTED] 74727.027

[GRAPHIC] [TIFF OMITTED] 74727.028

[GRAPHIC] [TIFF OMITTED] 74727.029

[GRAPHIC] [TIFF OMITTED] 74727.030

[GRAPHIC] [TIFF OMITTED] 74727.031

[GRAPHIC] [TIFF OMITTED] 74727.032

[GRAPHIC] [TIFF OMITTED] 74727.033

[GRAPHIC] [TIFF OMITTED] 74727.034

[GRAPHIC] [TIFF OMITTED] 74727.035


                                   

</pre></body></html>
